                  AUDIT REPORT


Consolidation of the
Huntsville, AL, Processing
and Distribution Facility
   May 5, 2014




                 Report Number NO-AR-14-005
                                                                      HIGHLIGHTS

                                                                       May 5, 2014
                                                Consolidation of the Huntsville, AL,
                                                Processing and Distribution Facility
                                                      Report Number NO-AR-14-005
BACKGROUND:
The U.S. Postal Service uses the Area        Processing and Distribution Center has
Mail Processing study to determine           insufficient machine capacity to process
whether it should consolidate Postal         all of Huntsville's destinating letter mail.
Service facilities. The Huntsville, AL,      Consequently, some letter mail still has
Processing and Distribution Facility         to be processed at the Huntsville P&DF.
(P&DF) consolidation consisted of two        The Postal Service has taken corrective
phases: the originating mail                 action by postponing future
consolidation (mail sent from Huntsville)    consolidations that require overnight
and the destinating mail consolidation       service changes.
(mail delivered to Huntsville). The Postal
Service completed the originating            Revisions to the service standards
consolidation on December 31, 2011,          would allow the Postal Service more
but has not fully implemented the            time to process letter mail at the
destinating consolidation. This report       Birmingham Processing and Distribution
responds to a congressional request for      Center and to move all mail processing
a review of the consolidation.               operations out of the Huntsville P&DF.

Our objectives were to determine             Following the partial move of destinating
whether a business case existed for          letter mail, we found that customer
consolidating mail processing                service scores did not significantly
operations from the Huntsville, AL,          change, productivity increased, and
P&DF into the Birmingham, AL,                delayed mail decreased. However, we
Processing and Distribution Center and       also found nearly 70 percent of carriers
assess compliance with Area Mail             were delivering mail after 5 p.m., which
Processing guidelines.                       is a significant increase compared to
                                             pre-consolidation levels.
WHAT THE OIG FOUND:
A business case existed to support the       WHAT THE OIG RECOMMENDED:
originating mail consolidation and the       We recommended the vice president,
Postal Service generally followed Area       Network Operations, continue
Mail Processing guidelines. Overall, cost    processing Huntsville's delivery point
savings were about $4.9 million              sequence mail at the Huntsville P&DF.
annually, or about $3.1 million higher       We also recommended to re-evaluate
than estimated. However, the Postal          staffing and resources at the Huntsville
Service has not yet fully implemented        P&DF to ensure timely processing of
the destinating mail consolidation           delivery point sequence mail so fewer
because the overnight service standards      carriers return after 5 p.m.
were not revised as anticipated. Without
these revisions, the Birmingham              Link to review the entire report
May 5, 2014

MEMORANDUM FOR:             DAVID E. WILLIAMS, JR.
                            VICE PRESIDENT, NETWORK OPERATIONS




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Consolidation of the Huntsville, AL,
                            Processing and Distribution Facility
                            (Report Number NO-AR-14-005)

This report presents the results of our audit of the Consolidation of the Huntsville, AL,
Processing and Distribution Facility (Project Number 14XG002NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Consolidation of the Huntsville, AL,                                                                               NO-AR-14-005
 Processing and Distribution Facility



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

   Machine Capacity ........................................................................................................ 2

   Customer Service ........................................................................................................ 4

   Employee Impact ......................................................................................................... 7

   Productivity .................................................................................................................. 8

   Delayed Mail ................................................................................................................ 9

   Area Mail Processing Guidelines ................................................................................. 9

   Cost Savings ............................................................................................................... 9

   Carrier Impacts .......................................................................................................... 10

Recommendations ........................................................................................................ 11

Management’s Comments ............................................................................................ 12

Evaluation of Management’s Comments ....................................................................... 12

Appendix A: Additional Information ............................................................................... 13

   Background ............................................................................................................... 13

   Objectives, Scope, and Methodology ........................................................................ 15

   Prior Audit Coverage ................................................................................................. 16

Appendix B: Management’s Comments ........................................................................ 20
Consolidation of the Huntsville, AL,                                                                     NO-AR-14-005
 Processing and Distribution Facility



Introduction

This report presents the results of our audit of the Consolidation of the Huntsville, AL,
Processing and Distribution Facility (P&DF) (Project Number 14XG002NO000). The
report responds to a congressional request for review of the consolidation. Our
objectives were to determine whether a business case existed for consolidating mail
processing operations from the Huntsville, AL, P&DF into the Birmingham, AL,
Processing and Distribution Center (P&DC) and assess compliance with established
Area Mail Processing (AMP) guidelines. This consolidation consisted of two phases: the
originating mail operation followed by the destinating mail operation. Mail sent from
Huntsville is considered originating mail and mail delivered to Huntsville is considered
destinating mail.

The Postal Service completed consolidation of the Huntsville P&DF originating mail
operation on December 31, 2011. Destinating mail parcels moved to the Birmingham
P&DC in April and May 2012 while destinating flats and part of the letter processing
operation moved in May and June 2013. The Delivery Point Sequence (DPS)1
processing of letter mail remained at the Huntsville P&DF and continued to be sorted on
10 Delivery Barcode Sorter (DBCS) machines. Management indicated this operation will
remain at the Huntsville P&DF to maintain the overnight service standard2 for delivery of
First-Class Mail (FCM). See Appendix A for additional information about this audit.

The Postal Service developed a formal process for reviewing and implementing AMP
proposals.3 It uses the AMP process to determine whether it can consolidate one or
more postal facilities into other automated processing facilities to:

   Increase operational efficiency and improve productivity through more efficient use
    of assets, such as equipment, facilities, staffing, and transportation.

   Provide affected career employees with opportunities for job reassignments.

   Provide Postal Service customers with the same high-quality service they expect.

   Ensure overall cost reductions.

Conclusion

A business case existed to support the originating mail consolidation and the Postal
Service generally followed AMP guidelines. Overall, cost savings were about


1
  DPS is the automated process of sorting mail into delivery order, which eliminates the need for carriers to sort the
mail manually.
2
  Overnight service is the standard by which mail is processed and delivered within 1 day. The Postal Service
intended to revise overnight service standards in February 2014; however, on January 24, 2014, it postponed this
revision.
3
  This process is defined in Handbook PO-408, Area Mail Processing Guidelines.

                                                           1
Consolidation of the Huntsville, AL,                                          NO-AR-14-005
 Processing and Distribution Facility


$4.9 million annually, or about $3.1 million higher than estimated. However, the Postal
Service has not yet fully implemented the destinating mail consolidation because the
overnight service standards were not revised as anticipated. Revisions to the standards
would give the Postal Service more time to process mail at the Birmingham facility and
move all mail processing operations out of the Huntsville P&DF.

Without these revisions, the Birmingham P&DC has insufficient machine capacity to
process all of Huntsville's destinating letter mail. For example, the combined letter
volume from June to November 2013 totaled 1.105 billion mailpieces, while letter
machine capacity at the Birmingham P&DC was only about 883 million mailpieces. This
left a shortfall of about 222 million mailpieces, which had to be processed at the
Huntsville P&DF. The Postal Service has taken corrective action by postponing future
consolidations that require overnight service changes.

Following the partial move of the destinating letter mail, we found that customer service
scores did not significantly change, productivity increased, and delayed mail decreased.
However, we also found nearly 70 percent of carriers were delivering mail after 5 p.m.,
which is a significant increase compared to pre-consolidation levels.

Machine Capacity

Machine capacity exists at the Birmingham P&DC to process all Huntsville P&DF
originating mail. Specifically, the Birmingham P&DC had overall excess machine
capacity of 32 percent (or almost 1.2 billion mailpieces) after the Postal Service moved
the originating mail from the Huntsville P&DF (see Table 1).




                                            2
  Consolidation of the Huntsville, AL,                                                                 NO-AR-14-005
   Processing and Distribution Facility



           Table 1. Birmingham P&DC Equipment Excess Capacity (Originating)


                                                                    Mailpieces
                       Number of          Maximum
  Equipment            Machines           Capacity*            Mail Volume**          Excess Capacity
Automated
Facer Canceller               6            381,225,600            184,506,229          196,719,371 52%
System
Automated Flats
                              3            188,325,000            103,035,942           85,289,058 45%
Sorting Machine
Automated
Parcel and                    3              71,842,221             45,110,971          26,731,250 37%
Bundle Sorter
DBCS                        27           2,393,987,400          1,744,475,792          649,511,608 27%
Delivery Input
Output Sub-                   5            585,900,000            376,035,734          209,864,266 36%
System
Total                       44           3,621,280,221          2,453,164,668 1,168,115,553 32%
Source: Enterprise Data Warehouse (EDW) and Web End-of-Run (WebEOR).
* Machine capacity is based on the type and class of mail processed during the operating window that would allow the
Postal Service to meet service standards.
** We calculated originating mail volume from December 1, 2012 through November 30, 2013.

  However, the Birmingham P&DC could not process all of Huntsville's destinating mail
  under the existing service standards. We found a 25 percent capacity shortfall existed
  on the DBCS machines to process Huntsville's DPS letter mail (see Table 2). To
  process this letter mail, the Birmingham P&DC would need additional DBCS machines,
  but it does not have sufficient floor space to accommodate them. Consequently, the
  Huntsville P&DF must continue processing DPS letters.




                                                           3
Consolidation of the Huntsville, AL,                                                                     NO-AR-14-005
 Processing and Distribution Facility



            Table 2. Birmingham P&DC Machine Capacity Shortfall (Destinating)


                                                                         Mailpieces
                          Number of            Maximum
       Equipment          Machines             Capacity*          Mail Volume**          Capacity Shortfall
    DBCS                               27       882,951,300 1,105,028,093 222,076,793                           25%
    Source: EDW and WebEOR.
    * Machine capacity is based on the type and class of mail processed during the operating window that would
    allow the Postal Service to meet service standards. DPS mail is part of the destinating operation and has a shorter
    operating window than other mail types.
    ** We calculated destinating mail volume using data from June 1 through November 30, 2013. This was the most
    recent time period after the partial destinating mail move.

Full implementation of the destinating AMP was contingent on revisions to service
standards, particularly the overnight standard for FCM. These service standard
revisions were to take effect on February 1, 2014; however, on January 24, 2014, the
Postal Service postponed them.4 The revised service standards would have allowed
more time for letter mail processing, ensuring ample capacity on Birmingham’s existing
DBCS machines to process all of Huntsville's DPS letter mail.

Customer Service

Customer service performance measured by the External First-Class Measurement
System (EXFC)5 improved by consolidating the originating mail operation. We found
that 21 of 24 indicators in overnight, 2-day, and 3-day service improved compared to the
pre-consolidation levels (see Table 3).




4
  Federal Register, Volume 79, No. 16, 39 CFR Part 121.
5
  Test an independent contractor performs to measure service performance for FCM (letters, flats, and postcards)
from mail collection to final delivery.

                                                            4
Consolidation of the Huntsville, AL,                                                              NO-AR-14-005
 Processing and Distribution Facility



                                 Table 3. Originating EXFC Scores

                                          Before Consolidation                         After Consolidation
                                                                        FY                  FY             FY
                                    Fiscal Year (FY) 2011              2012                2012           2013
     EXFC                          Quarter
    Standard    Facility6           (Q) 2     Q3      Q4                Q1         Q2        Q3         Q4        Q1
              Huntsville             95.98 95.61 96.92                 96.42      96.48     96.82      94.87     95.18
              P&DF
    Overnight
              Birmingham                95.92    96.24      95.93      96.03      96.09     96.85      96.59     94.12
              P&DC
              Huntsville                89.60    91.57      92.27      90.12      95.43     94.45      95.51     95.29
              P&DF
    2-Day
              Birmingham                92.06    93.50      92.16      91.69      93.96     94.03      95.24     93.42
              P&DC
              Huntsville                92.43    92.55      91.97      88.24      93.45     93.34      92.13     92.40
              P&DF
    3-Day
              Birmingham                90.00    93.29      91.94      88.92      93.17     94.37      94.28     89.26
              P&DC
Source: EDW.
Note: Green numbers show improved service scores compared to the same quarter the previous fiscal year, while
red numbers indicate a decline.

Following a partial move of the destinating letter processing operation, customer service
performance, measured by the EXFC measurement system, did not significantly
change. Overnight service scores for the Huntsville P&DF and the Birmingham P&DC
declined, while 3-day service scores for both facilities improved (see Table 4).




6
 Facility three-digit ZIP Codes impacted were Huntsville P&DF 356, 357, and 358; and Birmingham P&DC 350, 351,
352, 354, 355, 359, and 362.

                                                       5
Consolidation of the Huntsville, AL,                                                              NO-AR-14-005
 Processing and Distribution Facility



                                     Table 4. Destinating EXFC Scores

                                        Same Period              After
     EXFC                                Last Year              Partial                          Percentage
    Standard          Facility            (SPLY)*            Consolidation**           Change     Change
                    Huntsville
                    P&DF                           95.36                     95.19       -0.17        -0.2%
    Overnight
                    Birmingham
                    P&DC                           95.96                     95.33       -0.63        -0.7%
                    Huntsville
                    P&DF                           95.35                     93.88       -1.47        -1.5%
    2-Day
                    Birmingham
                    P&DC                           94.75                     94.85        0.10         0.1%
                    Huntsville
                    P&DF                           92.93                     93.25        0.32         0.3%
    3-Day
                    Birmingham
                    P&DC                           93.54                     93.79        0.25         0.3%
Source: EDW.
* June through November 2012.
** June through November 2013.
Note: Green numbers show an improvement in service scores and red numbers show a decline in service scores as
compared to SPLY.

Service Standard Impacts

Overall, consolidating the originating mail operation improved service standards.7 For
example, there were 21 net upgrades for all classes of mail, including six upgrades to
FCM (see Table 5). Service standard upgrades improve customer service by requiring
mail to arrive sooner at the destinating facility for delivery; however, we could not
evaluate service standard impacts for the consolidation of the destinating mail operation
since they have not yet been determined.




7
    Service standards are a stated goal for service achievement for each mail class.

                                                            6
Consolidation of the Huntsville, AL,                                                                   NO-AR-14-005
 Processing and Distribution Facility



                                  Table 5. Service Standard Impacts

                                                 Service Standard Changes
                                                   3-Digit ZIP Code Pairs8
                      Mail Class             Upgrade Downgrade Net Change
                   First-Class                      6             0            6
                   Priority9                        6           111        (105)
                   Periodicals                    105             9           96
                   Standard                        30            12           18
                   Packages                        15             9            6
                   Total                          162           141           21
                 Source: Originating AMP study and Service Standard Directory.

Employee Impact

Consolidating the Huntsville P&DF into the Birmingham P&DC has not resulted in any
career employee job losses. As of November 12, 2013, the Huntsville P&DF eliminated
90 employee positions (clerks, mail handlers, and postal support employees [PSE]) and
three executive and administrative schedule (EAS) positions. The Postal Service
reassigned affected employees to the Birmingham P&DC and to various post offices in
Alabama. Four employees accepted Postal Service jobs outside Alabama. The Postal
Service terminated 12 non-career PSEs and one PSE voluntarily resigned. Table 6
illustrates how the Postal Service reduced its staff.

                                        Table 6. Employee Impact

                                                                              Number of
                       How Reduction was Accomplished                         Employees
                       Retired                                                       29
                       Resigned                                                        4
                       Reassigned                                                    46
                       Exercised retreat rights (back to the                          -3
                       Huntsville P&DF)
                       Deceased                                                              1
                       Voluntary transfer to another agency                                  1
                       Terminated (non-career PSEs)                                         12
                       Total                                                                90
                     Source: U.S. Postal Service Office of Inspector General (OIG) and Postal
                     Service analysis.




8
  A service standard pair is the service standard between one 3-digit origin ZIP Code and one 3-digit destination ZIP
Code.
9
  Priority downgrades were 2-day destinations that became 3-day destinations.

                                                          7
Consolidation of the Huntsville, AL,                                                                   NO-AR-14-005
 Processing and Distribution Facility



Productivity

The combined first-handling piece (FHP)10 productivity11 for the Huntsville P&DF and
the Birmingham P&DC increased more than proposed in the originating AMP. The AMP
projected an increase of 3.14 percent in combined FHP productivity; however, the OIG
calculated a productivity increase of 3.94 percent (see Table 7).

                             Table 7. Productivity Impact (Originating)

                                         Per AMP                                        Per OIG
                      Before                               Percentage             After        Percentage
    Facility       Consolidation*          Proposed        Difference         Consolidation** Difference
 Huntsville
 P&DF                           1,566            1,661             6.09%                    1,565            -0.05%
 Birmingham
 P&DC                           1,096            1,147             4.68%                    1,176            7.27%
 Combined                       1,195            1,232             3.14%                    1,242            3.94%
Source: Originating AMP Study and EDW.
* October 2009 through September 2010.
 ** January through December 2012.

Additionally, in the 6-month period following the partial destinating consolidation,
combined facility FHP productivity increased by 3.16 percent compared to SPLY (see
Table 8).

                             Table 8. Productivity Impact (Destinating)

                                     SPLY (Before               After Partial        Percentage
                    Facility        Consolidation)*            Consolidation**       Difference
                 Huntsville
                 P&DF                              1,602                   2,148            34.09%
                 Birmingham
                 P&DC                              1,168                   1,168             0.06%
                 Combined                          1,239                   1,279             3.16%
                Source: EDW.
                * June through November 2012.
                ** June through November 2013.




10
   A letter, flat, or parcel that receives its initial distribution at a Postal Service facility.
11
   Productivity is calculated by dividing mailpieces by workhours. This number is useful when evaluating overall
efficiency.

                                                           8
Consolidation of the Huntsville, AL,                                                                   NO-AR-14-005
 Processing and Distribution Facility



Delayed Mail

Following consolidation of the originating mail operation, delayed mail12 decreased at
both facilities. Specifically, delayed mail at the Huntsville P&DF decreased from 9.30 to
3.13 percent of FHP volume. Similarly, the Birmingham P&DC realized a decrease in
delayed mail from 3.44 to 3.28 percent even with the additional mail volume from the
Huntsville P&DF (see Table 9). In the 6 months following the partial destinating
consolidation, the total delayed mail at both facilities decreased by 22 percent
compared to SPLY.

                    Table 9. Delayed Mail as a Percentage of FHP Volume

                              Before Consolidation*                           After Consolidation**
                           Delayed Mail    Percentage                     Delayed Mail      Percentage
     Facility                (Pieces)        Delayed                        (Pieces)          Delayed
 Huntsville P&DF               34,245,293         9.30%                       10,001,507            3.13%
 Birmingham
 P&DC                           39,317,027                    3.44%             38,430,172                   3.28%
Source: EDW and Mail Condition Reporting System.
*January through December 2011.
**January through December 2012.

Area Mail Processing Guidelines

The Postal Service complied with stakeholder communication policies when conducting
the consolidation and generally followed AMP guidelines; however, there were
instances where the Postal Service did not complete some AMP steps within
established timeframes. Missing the timeline did not adversely impact the consolidation
process.

Cost Savings

The Postal Service estimated cost savings from the Huntsville P&DF originating mail
consolidation to be $1,465,265 in the first year and $1,796,900 annually in subsequent
years. However, the OIG estimated a higher savings of $5,371,294 in the first year and
$4,879,056 annually in subsequent years (see Table 10). The difference in the Postal
Service and OIG estimates is primarily due to mail processing workhour savings, which
were significantly higher than projected in the AMP. This was because the Postal
Service offered a voluntary early retirement in 2012 and fewer employees moved to
Birmingham than the AMP proposed.

Our analysis also indicated the Postal Service underestimated transportation costs in
the originating AMP because it did not include all costs associated with increases in
fuel, wages, mileage, overtime, and extra trips. Although the Postal Service incurred

12
  The Postal Service considers mail to be delayed when it is not dispatched in time to meet its established delivery
day.

                                                          9
Consolidation of the Huntsville, AL,                                                             NO-AR-14-005
 Processing and Distribution Facility


additional transportation costs, this did not impact the overall viability of the originating
AMP as the additional workhour savings more than offset the increased transportation
costs. Finally, savings for the destinating mail consolidation were limited because the
Postal Service has not yet fully implemented the Huntsville P&DF destinating
consolidation. The Huntsville P&DF remains open to process DPS letter mail under
existing service standards.

                                        Table 10. Overall Savings

                                          AMP Projected            OIG Projected
              Category                    Savings/(Cost)           Savings/(Cost)            Difference

 Mail Processing Workhours                        $1,792,472                $6,952,630           $5,160,158
 Postal Career Executive
 Service/EAS Supervisor                                       0                  (5,214)              (5,214)
 Workhours
 Transportation                                     (100,421)               (2,248,833)         (2,148,412)
 Maintenance*                                         104,849                   180,473               75,624
 Annual Savings After the
                                                  $1,796,900                $4,879,056           $3,082,156
 First Year

 One-Time Maintenance
                                                              0               $667,967             $667,967
 Savings**
 One-Time Cost***                                   (331,635)                 (175,729)             155,906

 Total First Year Savings                         $1,465,265                $5,371,294           $3,906,029
  Source: EDW.
  * Maintenance savings were more than projected in the AMP, primarily due to machine and equipment relocation
   related costs incurred during the AMP baseline period.
  ** We determined there was a one-time maintenance savings due to vacant maintenance positions.
  *** One-time costs were less than projected in the AMP primarily because fewer employees moved to
  Birmingham, resulting in lower than estimated relocation costs.

Carrier Impacts

Mail in DPS

On June 1, 2013, the Postal Service moved part of the destinating letter mail processing
operation from the Huntsville P&DF to the Birmingham P&DC. While DPS letter
processing remained at the Huntsville P&DF, the percentage of DPS mail sorted by
7 a.m. at the Huntsville P&DF declined sharply, from 96.5 to 75.3 percent. Late arriving
mail from the Birmingham P&DC and inadequate staffing contributed to the decline in
DPS mail sorted by 7 a.m. Similarly, the percentage of DPS mail sorted by 7 a.m. at the
Birmingham P&DC declined from 98.2 percent to 91.7 percent (see Table 11). When
the Postal Service does not meet the DPS target of 7 a.m., it can result in carriers
receiving mail later and finishing their routes later.


                                                      10
Consolidation of the Huntsville, AL,                                             NO-AR-14-005
 Processing and Distribution Facility



                Table 11. 24-Hour Clock Indicator, DPS Cleared by 7 a.m.

                             Huntsville P&DF                Birmingham P&DC
                              After Partial                    After Partial
                              Destinating                      Destinating
  Indicator      SPLY*      Consolidation**  Change     SPLY Consolidation Change           Target
 DPS
 cleared by      96.5%            75.3%        -21.2%   98.2%       91.7%           -6.5%      100%
 7 a.m.
Source: WebEOR and EDW.
* June through November 2012.
** June through November 2013.

Carriers on the Street After 5 p.m.

Following the partial move of the destinating letter mail processing operation, the
percentage of carriers in Huntsville and Birmingham on the street after 5 p.m. increased
significantly. For instance, before the consolidation, 36 percent of the carriers in
Huntsville and 32 percent of the carriers in Birmingham were delivering mail after 5 p.m.
After the consolidation, the percentage of carriers delivering mail after 5 p.m. increased
to 69 percent in Huntsville and 68 percent in Birmingham (see Table 12).

                          Table 12. Carriers on the Street after 5 p.m.

                                                                   After Partial
                  Measurement                 City      SPLY*     Consolidation**
           Percentage of carriers         Huntsville     36%           69%
           returning after 5 p.m.         Birmingham     32%           68%
         Source: EDW
         * June through November 2012.
         ** June through November 2013.

This increase occurred because the Postal Service adjusted carrier start times to
accommodate mail arriving later at delivery units. As a result, carriers are finishing their
routes later and customers are receiving their mail later, sometimes after dark.

Recommendations

We recommend the vice president, Network Operations:

1. Continue processing Huntsville's delivery point sequence mail at the Huntsville
   Processing and Distribution Facility.

2. Re-evaluate staffing and resources at the Huntsville Processing and Distribution
   Facility to ensure timely processing of delivery point sequence mail so fewer carriers
   return after 5 p.m.



                                               11
Consolidation of the Huntsville, AL,                                        NO-AR-14-005
 Processing and Distribution Facility



Management’s Comments

Management agreed with our finding and recommendations.

In response to recommendation 1, management stated that consolidation of the
destinating operations from the Huntsville P&DF into the Birmingham P&DC is still in
progress and will be completed when the service standards change.

In response to recommendation 2, management will re-evaluate staffing and resources
at the Huntsville P&DF to ensure timely processing of DPS mail so fewer carriers return
after 5 p.m. The target completion date is August 2014. See Appendix B for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           12
Consolidation of the Huntsville, AL,                                                                 NO-AR-14-005
 Processing and Distribution Facility



                                 Appendix A: Additional Information

Background

The Postal Service ended FY 2013 with a net loss of $5 billion, marking the 7th
consecutive year in which the Postal Service incurred a net loss. The requirement to
prefund its retiree health benefit obligations, plus the continuous drop in FCM® volume,
have been major contributors to these losses.

In April 2013, the Postal Service released its updated comprehensive Business Plan,
which included detailed plans to eliminate nearly $20 billion of annual costs by 2017.
The Postal Service stated it will continue to aggressively pursue the strategies within its
control to increase operational efficiency and improve its liquidity position. As part of the
Business Plan, the Postal Service expects to realize savings of nearly $6 billion
annually by consolidating mail processing, retail, and delivery networks.13 The Postal
Service stated the consolidations are necessary to better align the networks with mail
volume and workhours.

The Postal Service uses AMP guidelines14 to consolidate mail processing functions and
eliminate excess capacity, increase efficiency, and better use resources. Consolidations
provide opportunities for the Postal Service to reduce costs and improve service and
operate as a leaner, more efficient organization.

Title 39 U.S.C. Part 1, Chapter 1, §101, states that the Postal Service “shall provide
prompt, reliable, and efficient services to patrons in all areas. . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states, “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal Accountability and Enhancement Act of 2006 highlights “the need for
the Postal Service to increase its efficiency and reduce its costs, including infrastructure
costs, to help maintain high quality, affordable postal services. . . .”

This report responds to a request from Congressman Mo Brooks, who represents the
5th Congressional District of Alabama, to review the consolidation of mail processing
operations from the Huntsville P&DF to the Birmingham P&DC. The representative's
concerns include whether the consolidation will be cost effective.

The Huntsville P&DF and the Birmingham P&DC are 92 miles apart and are in the
Alabama District of the Southern Area (see Figure 1).




13
   On January 24, 2014, the Postal Service announced that it is postponing the implementation date for service
standard changes that would have enabled the Postal Service to consolidate many mail processing facilities.
14
   Handbook PO-408, Area Mail Processing Guidelines, March 2008.

                                                         13
Consolidation of the Huntsville, AL,                                           NO-AR-14-005
 Processing and Distribution Facility


                                        Figure 1. Map of Alabama




                   Source: Originating AMP study.

This consolidation moved the originating mail and part of the destinating mail from the
Huntsville P&DF to the Birmingham P&DC. The originating consolidation, which was
implemented first, resulted in an overall increase in FHP volume of 2.37 percent at the
Birmingham P&DC. Later, the partial destinating consolidation increased FHP volume
by 2.15 percent.

The Postal Service completed consolidation of the Huntsville P&DF originating mail
operation on December 31, 2011. Destinating mail parcels moved to the Birmingham
P&DC in April and May 2012 and destinating flats and part of the letter processing
operation moved in May and June 2013. The DPS processing of letter mail remains in
Huntsville and continues to be sorted on 10 DBCS machines (see Figure 2).
Management indicated this operation will remain at the Huntsville P&DF to maintain the
existing overnight service standard for delivery of FCM.

                      Figure 2. DBCS Machines at the Huntsville P&DF




                             Source: OIG photograph taken November 19, 2013.




                                                    14
Consolidation of the Huntsville, AL,                                        NO-AR-14-005
 Processing and Distribution Facility


Objectives, Scope, and Methodology

Our objectives were to determine whether a business case existed for consolidating
mail processing operations from the Huntsville, AL, P&DF into the Birmingham, AL,
P&DC and assess compliance with AMP guidelines. To accomplish our objectives, we
reviewed and analyzed mail trends and productivity from October 2009 through
November 2013 at the Huntsville P&DF and the Birmingham P&DC. We reviewed
service scores, transportation costs, and carrier data; and conducted observations,
interviewed employees, and reviewed documentation to determine compliance with
AMP guidelines.

We used computer-processed data from the following Postal Service systems:

   EDW.
   Mail Condition Reporting System.
   Service Standards Directory.
   Transportation Contract Support System.
   Web Complement Information System.
   WebEOR.

We conducted this performance audit from October 2013 through April 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on March 26, 2014, and included their
comments where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.




                                           15
Consolidation of the Huntsville, AL,                                        NO-AR-14-005
 Processing and Distribution Facility



Prior Audit Coverage

                                                         Final
                                           Report       Report        Monetary
         Report Title                     Number          Date         Impact
Altoona, PA, Originating and            NO-AR-13-010   9/30/2013      $138,839
Destinating Mail Consolidation
Report Results:
There was a business case to support the consolidation. However, the AMP
overstated savings by $89,326 for the first year due to a one-time cost
overestimate. In addition, the AMP savings were overstated by $138,839 in
subsequent years due to additional transportation costs and unrealized
maintenance savings. Management agreed with our recommendation to re-evaluate
maintenance savings and make adjustments to the AMP proposal in the first
Post-Implementation Review.

New Castle and Greensburg,         NO-AR-13-004      8/16/2013          $978,954
PA, Consolidation
Report Results:
There was a business case to support the consolidation. Management agreed with
our recommendations to coordinate with the facility service office when rental space
is vacated to ensure appropriate lease termination actions are taken; take action to
sublease, buyout, or terminate lease agreements for vacated facilities; and ensure
Voyager eFleet cards are stored in a secure manner.




                                              16
Consolidation of the Huntsville, AL,                                       NO-AR-14-005
 Processing and Distribution Facility




                                                       Final
                                                      Report         Monetary
          Report Title            Report Number        Date           Impact
Modified Altoona, PA,             NO-MA-13-006       8/7/2013          None
Originating and Destinating
Area Mail Processing
Package
Report Results:
Review of the revised AMP indicated that the Altoona P&DF would not have a
sufficient number of mail processing employees to process the remaining
destinating mail volume. The shortfall would amount to over 19 employees, or about
32,000 workhours. This error also resulted in a $1.3 million overstatement in cost
savings associated with this revised AMP. Conversely, the revised AMP would have
created overstaffing at the Johnstown P&DF by about 16 employees. Management
agreed with our recommendation to make necessary corrections in the revised
AMP package by adjusting workhours and employee complement accordingly.
However, management did not agree that the Altoona P&DF would not have
enough employees to process the remaining workload asserting our conclusion is
based on general, rather than in-depth, analysis.

Frederick, MD, to Baltimore,       NO-AR-12-006        7/3/2012          $558,021
MD, Area Mail Processing
Consolidation
Report Results:
Consolidation of destinating mail processing operations initially resulted in
significant delayed mail, declines in service and customer experience scores, and
increased transportation costs. Management acknowledged there were challenges
with the consolidation, but had addressed many of the problems experienced during
the consolidation and operating conditions had improved. Management agreed with
the recommendation to avoid implementing consolidations during the fall and
holiday peak mailing seasons, as appropriate. Management also agreed with the
recommendation to ensure customer service commitments are met, but noted
operations for sectional center facility 217 have now stabilized and service levels
above national targets are being achieved. Management also stated the Postal
Service was paying a contractor for services no longer required since the
consolidation. Management is working to ensure reimbursement of payments for
services not performed and expect this to be completed by the end of the calendar
year.




                                          17
Consolidation of the Huntsville, AL,                                          NO-AR-14-005
 Processing and Distribution Facility




                                                         Final
                                           Report       Report           Monetary
         Report Title                     Number          Date            Impact
Oxnard, CA, Processing and              NO-AR-12-004   3/6/2012            None
Distribution Facility
Destinating Mail
Consolidation
Report Results:
There was a business case to support the consolidation. Management agreed
with our recommendations to monitor customer service measurement, and
regarding 24-hour clock indicators, delayed mail, and staffing levels to ensure mail
is processed timely.

Consolidation of Mail                NO-AR-12-003      1/20/2012           None
Processing Operations at the
Mansfield, OH, Customer
Service Mail Processing
Center
Report Results:
There was a business case to support the consolidation, producing a first-year
savings of about $4.8 million if the Postal Service successfully repositions affected
employees. Management agreed with our recommendations to identify
repositioning plans for all impacted employees at the Mansfield Customer Service
Mail Processing Center and continue to monitor and take necessary actions to
process mail timely at the Cleveland P&DC.

Industry, CA, Processing        NO-AR-12-002       10/17/2011          None
and Distribution Center
Originating Mail
Consolidation
Report Results:
There was a business case to consolidate originating mail processing operations
from the Industry P&DC into the Santa Ana P&DC to achieve a cost savings of
about $1.32 million annually. We made no recommendations.




                                               18
Consolidation of the Huntsville, AL,                                      NO-AR-14-005
 Processing and Distribution Facility




                                                      Final
                                                     Report         Monetary
         Report Title          Report Number          Date           Impact
Flint, MI, Processing and       EN-AR-12-001       10/6/2011          None
Distribution Center
Consolidation
Report Results:
There was a business case to consolidate destinating mail processing operations
from the Flint Michigan P&DC into the Michigan Metroplex P&DC. We made no
recommendations.

Bowling Green, KY,               EN-AR-11-008        8/25/2011            None
Consolidation
Report Results:
There was a business case to consolidate originating mail processing operations.
Management agreed with our recommendation that processing and transportation
plans be in place to achieve overnight service standards as outlined in the AMP
proposal and our recommendation to enhance AMP worksheets to ensure data can
be consolidated electronically when there are two or more gaining facilities.

Oshkosh, WI, Processing           NO-AR-11-006         7/29/2011           None
and Distribution Facility
Consolidation
Report Results:
Although, the consolidation would result in cost savings, adequate facility and
machine capacity did not exist at the Green Bay P&DC to process the additional
mail volume and service could be negatively impacted. Management agreed with
our recommendation to re-evaluate capacity at the Green Bay P&DC to determine if
sufficient work floor and dock space is available. In addition, management agreed
with our recommendation to reassess machine capacity; however, management
disagreed with our analysis of floor space and letter processing capacity.




                                         19
Consolidation of the Huntsville, AL,                            NO-AR-14-005
 Processing and Distribution Facility



                            Appendix B: Management’s Comments




                                           20
Consolidation of the Huntsville, AL,         NO-AR-14-005
 Processing and Distribution Facility




                                        21
Consolidation of the Huntsville, AL,         NO-AR-14-005
 Processing and Distribution Facility




                                        22
